WAIVER

SUPREME COURT OF THE UNITED STATES
20-6288

Supreme Court Case No.
Allen Snyder , Darrel Vannoy

(Petitioner) (Respondent)
IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
(=| Please enter my appearance as Counsel of Record for all respondents.

( There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

(=| I am a member of the Bar of the Supreme Court of the United States.
O Lam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by ‘a member

Signature

[r-l- 2020
Darren Allemand
=) Mr. Ms. Mrs, Miss
Jefferson Parish District Attorney's Office
200 Derbigny Street
City & State Gretna, Louisiana Zip 70053
504-361-2532 bburke@jpda.us

Phone Email

Date:

(Type or print) Name

 

 

 

 

 

 

 

 

 

 

Firm

Address.

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Allen Snyder, Louisiana State Penitentiary, Angola, LA 70712
 

Paut D. Connick, JR.

District ATTORNEY
Twenty-Fourtu Jupiciat District
ParisH Or JEFFERSON

Marcaret E. Hay State Or Louisiana 200 Dersicny STREET
First Assistant GRETNA, LA 70053
District ATToRNEY December 1, 2020 Prone: (504) 368-1020

Clerk of Court

United States Supreme Court
1 First Street NE
Washington, DC 20543

Re: Allen Snyder v. Darrel Vannoy, Warden
U.S. Supreme Court No. 20-6288
Dear Sir/Madam:

Enclosed please find the Waiver to be filed in the above captioned case.

Very truly ours,

2

A

Darren Allemand
Assistant District Attorney

DA/ BB
Enc.

C: Allen Snyder, Louisiana State Penitentiary, Angola, LA 70712
